Appellate Case: 19-6175

Document: 010110449190

Date Filed: 12/09/2020

Page: 1

FILED
United States Court of Appeals
Tenth Circuit
UNITED STATES COURT OF APPEALS

FOR THE TENTH CIRCUIT
_______________________________________
UNITED STATES OF AMERICA,

December 9, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellee,
No. 19-6175
(D.C. No. 5:19-CR-00111-R-1)
(W.D. Okla.)

v.
JASON SCOTT PEDRO,

Defendant - Appellant.
________________________________________
ORDER AND JUDGMENT *
__________________________________________
Before BRISCOE, MURPHY, and BACHARACH, Circuit Judges.
___________________________________________
This appeal involves a criminal sentence. The defendant, Mr. Jason
Scott Pedro, was convicted of possessing a firearm after a felony
conviction. 18 U.S.C. § 922(g)(1). In imposing the sentence, the district
court applied an enhancement and ordered 7 years’ imprisonment. Mr.
Pedro challenges application of the enhancement and argues that the
sentence was substantively unreasonable.

This order and judgment does not constitute binding precedent except
under the doctrines of law of the case, res judicata, and collateral estoppel.
But the order and judgment may be cited for its persuasive value if
otherwise appropriate. Fed. R. App. P. 32.1(a); 10th Cir. R. 32.1(A).
*

APPENDIX
Page 1 of 9

Appellate Case: 19-6175

Document: 010110449190

Date Filed: 12/09/2020

Page: 2

In our view, any error would have been harmless because the district
court explained that it would have imposed the same sentence even without
the enhancement, pointing to Mr. Pedro’s extraordinary criminal record.
This explanation not only made any error harmless but also justified the 7year sentence, rendering it substantively reasonable. We thus affirm the
sentence.
1.

The court sentenced Mr. Pedro to 7 years in prison.
Under the sentencing guidelines, an enhancement applies when the

offense involves a “semiautomatic firearm that is capable of accepting a
large capacity magazine.” U.S. Sent’g Guidelines Manual
§ 2K2.1(a)(4)(B)(i)(I) & (ii)(I) (U.S. Sent’g Comm’n 2018). The district
court heard argument, examined the firearm, and decided that the
enhancement applied.
The enhancement increased Mr. Pedro’s guideline range from 30–37
months to 51–63 months. Compare U.S. Sent’g Guidelines Manual
§ 2K2.1(a)(4)(B) (U.S. Sent’g Comm’n 2018) (base-offense level of 20 for
possession by a prohibited person with a gun that could accept a largecapacity-magazine), with U.S. Sent’g Guidelines Manual § 2K2.1(a)(6)
(U.S. Sent’g Comm’n 2018) (base-offense level of 14 for possession by a
prohibited person). 1 After applying the enhancement, the court concluded

1

The government agreed that Mr. Pedro’s
2
APPENDIX
Page 2 of 9

Appellate Case: 19-6175

Document: 010110449190

Date Filed: 12/09/2020

Page: 3

that even the ceiling of the guideline range wouldn’t adequately protect the
public. So the court varied upward 21 months to impose a 7-year sentence.
2.

Any procedural error would have been harmless because the
court would have imposed the same sentence even without the
enhancement.
Mr. Pedro argues that the court misapplied the enhancement. If the

court had erroneously applied an enhancement, we would ordinarily
reverse. See Molina-Martinez v. United States, 136 S. Ct. 1338, 1346
(2016). But erroneous application of an enhancement can sometimes be
harmless. United States v. Gieswein, 887 F.3d 1054, 1061 (10th Cir. 2018).
The government bore the burden on harmlessness, needing to show
by a preponderance of the evidence that the error had not affected the
sentence. United States v. Glover, 413 F.3d 1206, 1210 (10th Cir. 2005).
The error would be harmless only “if the record viewed as a whole clearly
indicates the court would have imposed the same sentence had it not relied
on the procedural miscue(s).” Gieswein, 887 F.3d at 1061 (quoting United
States v. Kieffer, 681 F.3d 1143, 1165 (10th Cir. 2012)); see also MolinaMartinez, 136 S. Ct. at 1346 (“The record . . . may show, for example, that
the court thought the sentence it chose was appropriate irrespective of the



base-offense level would be reduced by three levels for
acceptance of responsibility and timely notification and



criminal history was in Category VI.
3
APPENDIX
Page 3 of 9

Appellate Case: 19-6175

Document: 010110449190

Date Filed: 12/09/2020

Page: 4

Guidelines range.”). But it’s not enough for the district court to say that
the enhancement didn’t affect the sentence. See United States v. PeñaHermosillo, 552 F.3d 1108, 1117 (10th Cir. 2008) (holding that a
“perfunctory explanation” is not enough to avoid remand). The court must
instead provide a “cogent” and “thorough” explanation. Id.; Gieswein, 887
F.3d at 1063.
For the sake of argument, we may assume that the district court erred
in applying the enhancement. Even with this assumption, however, the
error would have been harmless because the court cogently and thoroughly
explained that it would have imposed the same sentence irrespective of the
enhancement.
The court explained that it was relying on the statutory maximum of
ten years with credit for the guilty plea: “I would give you the maximum,
but for your plea of guilty and I give you credit for that.” R., vol. 3, at 31;
see R., vol. 2, at 28. By expressly basing the sentence on the statutory
maximum and credit for the guilty plea, the district court clearly showed
that it would have applied the same sentence even without the
enhancement. See Gieswein, 887 F.3d at 1063 (concluding that an
erroneous guideline calculation was harmless because the district court’s
thorough explanation for the sentence was based on the statutory
maximum).

4
APPENDIX
Page 4 of 9

Appellate Case: 19-6175

Document: 010110449190

Date Filed: 12/09/2020

Page: 5

The court’s explanation was not only clear but also cogent and
thorough. The court explained that a 7-year sentence was needed to protect
the public based on


Mr. Pedro’s history, which included “33 prior convictions” and



an “incendiary” combination of convictions for “drugs,
violence and guns.”

R., vol. 3, at 31.
Mr. Pedro disagrees, arguing that the court might have imposed a
lighter sentence if the guideline range had been lower. For this argument,
Mr. Pedro points out that the district court had obviously tried to correctly
decide the applicability of the enhancement. For example, at the initial
sentencing hearing, the district court said that it couldn’t meaningfully
decide the applicability of the enhancement without examining the firearm.
The court examined the firearm to make an informed decision about
the applicability of the enhancement. But the court pointed out that its
consideration of the enhancement didn’t ultimately influence the sentence:
“[T]he sentence I’ll impose really is the same without regard to how I rule
on the [guideline] objection because of my appraisal of your history.” Id.
So the decision to examine the firearm does not undermine the court’s
explanation that the sentence would have stayed the same without the
enhancement. So any procedural error would have been harmless.

5
APPENDIX
Page 5 of 9

Appellate Case: 19-6175

3.

Document: 010110449190

Date Filed: 12/09/2020

Page: 6

The sentence is substantively reasonable.
Mr. Pedro challenges not only the imposition of the enhancement but

also the substantive reasonableness of his sentence. We review this
challenge under the abuse-of-discretion standard. Gall v. United States,
552 U.S. 38, 51 (2007). In conducting this review, we consider “the
totality of the circumstances, including the extent of any variance from the
Guidelines range.” Id.
We assess the reasonableness of a sentence based on seven statutory
factors: (1) the nature and circumstances of the offense and the history and
characteristics of the defendant, (2) the need for a sentence to reflect the
seriousness of the crime, deter future criminal conduct, protect the public,
and provide rehabilitation, (3) the legally available sentences, (4) the U.S.
Sentencing Guidelines, (5) the Sentencing Commission’s policy statements,
(6) the need to avoid unwarranted disparities among sentences, and (7) the
need for restitution. 18 U.S.C. § 3553(a). We reverse only if the district
court applied these statutory factors in a way that was “arbitrary,
capricious, whimsical, or manifestly unreasonable.” United States v.
Garcia, 946 F.3d 1191, 1211 (10th Cir. 2020) (quoting United States v.
DeRusse, 859 F.3d 1232, 1236 (10th Cir. 2017)).
In our view, the 7-year sentence fell within the district court’s
discretion. The court explained that it was heavily influenced by Mr.
Pedro’s extensive criminal history, which included 33 prior convictions
6
APPENDIX
Page 6 of 9

Appellate Case: 19-6175

Document: 010110449190

Date Filed: 12/09/2020

Page: 7

and an “incendiary” combination of “drugs, violence, and guns.” R., vol. 3,
at 30–31. For this explanation, the court pointed out that Mr. Pedro’s
criminal-history points had more than doubled the threshold for the highest
criminal-history category. With this extensive criminal history, the court
explained the need to protect the public through a prison term of 7 years.
Given this explanation, the sentence was reasonable. See United
States v. Barnes, 890 F.3d 910, 917 (10th Cir. 2018) (stating that a
sentence is more likely to be considered reasonable when the court has
provided a cogent, reasonable explanation). Mr. Pedro had not only an
extraordinary number of prior convictions but also a violent past. For
example, his prior convictions included domestic assault–assault and
battery, feloniously pointing a firearm, and possessing a firearm during the
commission of a felony (burglary of a building).
Mr. Pedro presents four arguments:
1.

The guideline range already accounted for his numerous prior
convictions.

2.

The court did not justify an upward departure.

3.

The enhancement was not empirically based.

4.

The court failed to adequately consider his personal history and
characteristics.

In our view, these arguments do not undermine the reasonableness of the
sentence.

7
APPENDIX
Page 7 of 9

Appellate Case: 19-6175

Document: 010110449190

Date Filed: 12/09/2020

Page: 8

First, Mr. Pedro argues that the guideline range already accounted for
his criminal history and the need to protect the public. But the district
court could reasonably view the guideline range as a poor benchmark
because Mr. Pedro had more than twice the criminal-history points
necessary to reach the top criminal-history category. See United States v.
Barnes, 890 F.3d 910, 921 (10th Cir. 2018) (concluding that a district
court can justify a variance by relying on facts that the guidelines had
already taken into account).
Second, Mr. Pedro argues that the court did not adequately support
an upward departure. But the court applied a variance, not a departure, so
those findings were unnecessary. 2

2

The court used language suggesting both a departure and a variance.
For example, the district court said that it would “depart upwards.” R., vol.
3, at 31. But the court had earlier said: “[T]he sentence I’ll impose is
really the same without regard to how I rule on the objection,” suggesting
that the sentence would involve a variance rather than a departure. Id. We
thus consider the entire record to ascertain whether the court imposed a
variance or departure. United States v. Alapizco-Valenzuela, 546 F.3d
1208, 1220–21 (10th Cir. 2008).
In our view, the entirety of the record shows that the court imposed a
variance rather than a departure. The court never referred to a guideline
provision authorizing a departure. And in the eventual “statement of
reasons,” the court stated that it was imposing a variance, dropping the
earlier reference to a departure. See United States v. Adams, 751 F.3d
1175, 1182–83 (10th Cir. 2014) (characterizing the district court’s action
as a variance, rather than a departure, based on the court’s reliance on the
statutory sentencing factors, omission of any reference to the guideline
provisions addressing departures, and clarification in the written
“Statement of Reasons” that the court was imposing a variance).
8
APPENDIX
Page 8 of 9

Appellate Case: 19-6175

Document: 010110449190

Date Filed: 12/09/2020

Page: 9

Third, Mr. Pedro argues that the enhancement was not empirically
based. But the court explained that it would have imposed the same
sentence irrespective of the enhancement.
Finally, Mr. Pedro argues that the court inadequately considered his
personal history and characteristics. But the court considered these factors
and concluded that they were dwarfed by Mr. Pedro’s 33 prior convictions
involving violence, drugs, and guns.
Given the court’s explanation, we conclude that the 7-year sentence
was substantively reasonable.
Affirmed.
Entered for the Court

Robert E. Bacharach
Circuit Judge

9
APPENDIX
Page 9 of 9

